                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

I((  Case Number: I05080047
                                                                                  11           Page 1 of 1
                                                                                                                I1




          This case was opened as part of the proactive review into the use of participant support funds in
          the US-Egypt collaborative program. We were reviewing participant support to ensure the hnds
          were used correctly and not being transferred to other expense lines without Program Officer
          prior approval as required by NSF rules.

          There were two awards' to the awardee2under the US-Egypt program. In the first award, it
          appeared that $5200 in participant support and $2,373 in foreign travel were reallocated to
          equipment without approval from the NSF program officer. In the second award, it appeared that         I,

          several flights to foreign countries and between foreign countries were charged to the NSF, award
          that did not appear to be consistent with the NSF award objectives.

          In response to our inquiry, the awardee said that the reallocated funds in the first award were the
          result of a misunderstanding between the Program Officer ( ~ 0and   ) ~the Principal Investigator
           PI).^ The PI thought that the PO had approved the entire purchase of a new computer when the
          PO had actually approved the reallocation of a smaller sum. The PO told us that while this
          purchase was acceptable further requests for purchases of computer equipment on the other
          awards this PI currently has would not be approved.

          Regarding the questionable travel, the awardee acknowledged that it had charged flights to'the
          first award in violation of the Fly America Act and that one flight was inappropriately charged to
          the award. As a result, the awardee modified its policies and forms to ensure that travel expenses
          would be consistent with the Fly America Act and it reimbursed NSF for the flight mistakenly
          charged to the NSF award.5

          These actions by the awardee resolve our questions regarding these awards and this case is
          closed.




II
 NSF OIG Form 2 (1 1/02)
                                  i
                                 I
                                 -
